		
	
	
	
	
        ASSESSMENT	REPORT	
              14‐19	
                 	

	
                   	
                   	
     Federal	PKI	Compliance	Report	
          September	12,	2014	
                   	
	
	
	

                   	
	
	
	
	
Date	 	
September	12,	2014	
To	     	
Chief	Information	Officer	
From	
Inspector	General	
Subject	
Assessment	Report	‐	Federal	PKI	Compliance	Report	
Report	Number	14‐19	
	
Enclosed	please	find	the	subject	final	report.		The	Office	of	the	Inspector	General	
administered	a	contract	with	Ernst	&	Young	LLP	(E&Y)	to	provide	a	compliance	
report	of	GPO’s	Public	Key	Infrastructure	(PKI)	for	July	1,	2013	through																	
June	30,	2014.		E&Y	conducted	their	work	in	accordance	with	attestation	standards	
established	by	the	American	Institute	of	Certified	Public	Accountants.		
	
E&Y	concluded	that	GPO’s	assertion	is	fairly	stated	in	all	material	respects.		E&Y	also	
issued	a	Letter	of	Supplementary	Information,	concluding	that	the	GPO	Principal	
Certification	Authority	Certificate	Practices	Statement	conformed	in	all	material	
respects	to	the	GPO‐Certificate	Authority	and	Federal	PKI	common	policies.		E&Y	is	
responsible	for	the	attached	report	and	the	opinion	expressed	therein.			
	
 We	appreciate	the	courtesies	extended	to	E&Y	and	to	our	audit	staff.	 If	you	have	
 any	questions	or	comments	about	this	report,	please	do	not	hesitate	to	contact					
 Mr.	Jeffrey	C.	Womack,	Assistant	Inspector	General	for	Audits	and	Inspections	at	
 (202)	512‐2009	or	me	at	(202)	512‐0039.	


                                      	
Michael	A.	Raponi		
Inspector	General		
	
Enclosure		
cc:		
Public	Printer	
Deputy	Public	Printer		
General	Counsel	
Chief	of	Staff	
Chief	Administrative	Officer	
U.S. Government
Printing Office

Report of Independent Accountants
Federal PKI Compliance Report
For the Period July 1, 2013 to June 30, 2014
                                           Table of Contents


Report of Independent Accountants ....................................................................... 1
Management Assertion ......................................................................................... 2
Letter of Supplementary Information ..................................................................... 5
Summary of Matters Relating to Project Personnel .................................................. 7




1308-1122712
                                        Ernst & Young LLP           Tel: +1 703 747 1000
                                        Westpark Corporate Center   Fax: +1 703 747 0100
                                        8484 Westpark Drive         ey.com
                                        McLean, VA 22102




                                                Report of Independent Accountants

   We have examined the assertion, dated August 21, 2014, by the management of the United
   States Government Printing Office (“GPO”), that GPO’s Certification Authority (GPO-CA)
   complied with certain requirements of its Certificate Policy (CP), Version 1.3.1 dated
   August 17, 2009 and its Certificate Practices Statement (CPS) Version 1.7.3 dated April 18,
   2014 for the GPO Principal Certificate Authority (GPO-PCA) and its Certificate Practices
   Statement Version 1.7.4 dated April 18, 2014 for the GPO Subordinate Certificate Authority
   (GPO-SCA) for the period July 1, 2013 to June 30, 2014, as well as the requirements of the
   Federal PKI Authority and all current cross-certification Memorandum of Agreements (MOAs)
   executed by the GPO with other entities.

   Management of the GPO is responsible for its compliance with those requirements. Our
   responsibility is to express an opinion on management’s assertion about the GPO’s
   compliance based on our examination.

   Our examination was conducted in accordance with attestation standards established by the
   American Institute of Certified Public Accountants and accordingly, included examining, on a
   test basis, evidence about GPO-CA’s compliance with those requirements and performing
   such other procedures as we considered necessary in the circumstances. We believe that our
   examination provides a reasonable basis for our opinion. Our examination does not provide a
   legal determination on GPO-CA’s compliance with specific requirements.

   In our opinion, for the period from July 1, 2013 through June 30, 2014, GPO management’s
   assertion, as set forth in the first paragraph, is fairly stated, in all material respects.

   This report is intended solely for the information and use of the GPO and the U.S. Federal PKI
   Policy Authority and is not intended to be and should not be used by anyone other than those
   specified parties.




   August 21, 2014




                                                                                                1
A member firm of Ernst & Young Global Limited
                                        Ernst & Young LLP           Tel: +1 703 747 1000
                                        Westpark Corporate Center   Fax: +1 703 747 0100
                                        8484 Westpark Drive         ey.com
                                        McLean, VA 22102




                                                                                           August 21, 2014


                                                Letter of Supplementary Information

   To the Inspector General of the United States Government Printing Office and the
   Management of the United States Government Printing Office Certification Authority
   (GPO CA):

   This letter provides supplementary information to the examination performed by
   Ernst & Young LLP of the assertion by the management of the GPO-CA regarding the
   certification authority services it provides at http://www.gpo.gov/projects/pki.htm.

   Management’s assertions were based on the American Institute of Certified Public
   Accountants (AICPA)/Canadian Institute of Chartered Accountants WebTrust for Certification
   Authorities criteria. GPO-CA’s management was responsible for its assertion. Our
   responsibility was to express an opinion on management’s assertion based on our
   examination.

   Our examination was conducted in accordance with attestation standards established by
   the AICPA and, accordingly, included examining, on a test basis, evidence about GPO’s
   compliance with those requirements and performing such other procedures as we considered
   necessary in the circumstances. We believe that our examination provides a reasonable basis
   for our opinion. Our examination does not provide a legal determination on GPO-CA’s
   compliance with specified requirements.

   The period for this examination was from July 1, 2013 through June 30, 2014. Our
   examination was performed between March 26, 2014 and July 30, 2014.

   We examined the Certificate Policy (CP) for the GPO-CA version 1.3.1, dated August 17,
   2009, the Certification Practices Statement (CPS) for the GPO Principal Certification
   Authority (GPO-PCA) version 1.7.3, dated April 18, 2014 and the Certificate Practices
   Statement for the GPO Subordinate Authority (GPO-SCA) version 1.7.4 dated April 18, 2014.
   Multiple Root CAs were not in operation at GPO-CA.

   Our examination included, through our testing of management’s assertion, the evaluation of
   GPO-CA’s operations for conformance to the requirements of its CPSs and the evaluation of
   GPO-CA’s operations for conformance to the requirements of all current cross-certification
   Memorandum of Agreements (MOAs) executed by the GPO-CA with other entities. In our
   Report of Independent Accountants dated August 21, 2014, we reported that management’s
   assertion was fairly stated in all material respects.




                                                                                                             5
A member firm of Ernst & Young Global Limited
   We have compared the CPS for the GPO-PCA version 1.7.3, dated April 18, 2014, for
   conformance to the CP for the GPO-CA version 1.3.1, dated August 17, 2009. We have also
   compared the CPS for the GPO-SCA version 1.7.4, dated April 18, 2014, for conformance to
   the CP for the GPO-CA version 1.3.1, dated August 17, 2009. We found, in all material
   respects, that the GPO-PCA CPS and the GPO-SCA CPS are in conformance with GPO-CA CP.

   We have compared the CPS for the GPO-PCA version 1.7.3, dated April 18. 2014 and the CPS
   for the GPO-SCA version 1.7.4, dated April 18, 2014 for conformance to the FPKI Common
   Policy. For this analysis we utilized the Framework Certification Practice Statement Evaluation
   Mapping Matrix, Version 2.8 (September 22, 2010). We found, in all material respects, that
   the GPO-PCA CPS and the GPO-SCA CPS are in conformance with the requirements of the
   FPKI Common Policy.

   We are independent of the GPO for the professional engagement period as required by the
   AICPA Professional Standards.




                                                                                                 6
A member firm of Ernst & Young Global Limited
                                        Ernst & Young LLP           Tel: +1 703 747 1000
                                        Westpark Corporate Center   Fax: +1 703 747 0100
                                        8484 Westpark Drive         ey.com
                                        McLean, VA 22102




                                                                                           August 21, 2014

                                                Summary of matters related to project personnel
                                                      provided by Ernst & Young LLP

   To the Inspector General of the United States Government Printing Office and the
   Management of the United States Government Printing Office Certification Authority
   (GPO-CA):

   The GPO Office of Inspector General (OIG) has asked Ernst & Young LLP (EY or we) to provide
   certain information to assist in its efforts to provide the Federal Public Key Infrastructure
   Policy Authority (FPKIPA) with information about the individuals who performed work as part
   of the WebTrust for Certification Authority (WTCA) examination services; these services are
   performed in accordance with relevant American Institute of Certified Public Accountants
   (AICPA) standards. The FPKIPA sets policy governing operation of the U.S. Federal PKI
   Infrastructure, composed of: the Federal Bridge Certification Authority (FBCA); the Federal
   Common Policy Framework Certification Authority (CPFCA); the Citizen and Commerce Class
   Common Certification Authority (C4CA) and the E-Governance Certification Authority. EY
   makes no representation regarding the sufficiency of this information for the purposes for
   which this information was requested. That responsibility rests solely with the FPKIPA.

   Educational level and professional experience

   Client serving personnel (Professionals) EY has provided to the Agency have received a degree
   from an accredited college or university (or its equivalent if the individual was educated
   outside of the United States). Certain individuals may also have advanced degrees. The
   majority of Professionals provided to the Agency are part of EY’s Advisory Services (AS)
   service line. Recruiting efforts for the AS practice focuses on candidates with information
   technology, accounting, finance and other business-related degrees. Hiring activities and
   types of Professionals hired into each EY service line, including Assurance and Tax, are
   generally the same as similar service lines and personnel of Deloitte, PwC and KPMG (who
   along with EY, are the Big Four).

   The experience levels of Professionals provided will vary based upon various factors including
   age and length of time the individual has worked since receiving their degree. The amount of
   professional experience of Professionals may not solely be related to a person’s employment
   period with EY, as EY normally hires a combination of experienced Professionals and
   Professionals who recently graduated from a college or university. In most cases, the
   experience level within a rank classification of EY Professionals is generally the same as the
   other Big Four.




                                                                                                             7
A member firm of Ernst & Young Global Limited
   Methodologies, policies and procedures

   EY Professionals carrying out WTCA examinations are required to comply with policies and
   procedures within the EY Global Advisory Quality Guide (“the Guide”) and related
   methodologies. In those cases where we do not perform work directly under the supervision
   and responsibility of Agency personnel as part of an engagement to provide loan staff, and we
   provide management with our findings and recommendations in those areas where we observe
   internal controls that, in our view, could be improved, the Guide requires the work and any
   reports or deliverables to be in accordance with the Statement on Standards for Consulting
   Services (CS100) of the AICPA. The initial adoption of, and any subsequent changes in,
   policies and procedures have been reviewed and approved by EY’s Professional Practice group.

   Professional certification and continuing education

   EY encourages its Professionals to obtain a professional certification. In certain service lines,
   obtaining a professional certification is a requirement for promotion. Individuals in AS are
   required to obtain a professional certification to be promoted to Manager. In the AS service
   line, the most common certifications are Certified Public Accountant (CPA) (or its equivalent in
   other countries), Certified Internal Auditor (CIA) as recognized by the Institute of Internal
   Auditors, Certified Information Systems Auditor (CISA) as recognized by ISACA, or Certified
   Management Accountant (CMA) as recognized by the Institute of Management Accountants.

   The continuing professional education requirements of the SEC (Securities and Exchange
   Commission) Practice Section of the AICPA Division for CPA firms are the foundation of EY’s
   professional development policy. Participation in professional development programs is
   measured in units of continuing professional education (CPE) credit hours earned in our
   educational year. EY’s educational year is July 1 through June 30. The EY policy for
   compliance is as follows:

   • Commencing with the first full educational year of employment, each professional must
     obtain at least 20 CPE credit hours each year and at least 120 CPE credit hours during the
     most recent three-year period.

   • Professionals who were not employed during the entire most recent educational year are
     not required to earn continuing professional education credits in that year.

   • Professionals who were employed during the entire most recent educational year, but not
     during the entire most recent two educational years, are required to have participated in at
     least 20 hours of qualifying continuing professional education during the most recent
     educational year.

   • Professionals who were employed during the entire most recent two educational years, but
     not during the entire most recent three educational years, are required to have participated
     in at least 20 hours of qualifying continuing professional education during each of the two
     most recent educational years.




                                                                                                  8
A member firm of Ernst & Young Global Limited
   Professionals who hold a professional designation or certification other than the CPA
   certification (e.g., CIA, attorney at law, CISA, CMA) may be subject to continuing education
   requirements as part of that designation or certification. Completion of courses to meet these
   requirements may be used to meet the firm’s CPE requirements as long as the courses also
   meet the requirements of the AICPA’s SEC Practice Section.

   Experience Auditing PKI Systems

   The EY executive team assigned to the GPO project has experience in performing audits and
   implementation of PKI systems and IT security. In addition, certain team members also have
   participated in a number of other commercial PKI and WebTrust for CA examinations both as a
   team member and as a quality reviewer. We have incorporated consultations with other EY
   personnel who represent the firm on the AICPA WebTrust Task Force. EY’s client roster for PKI
   projects for governmental agencies other than the GPO includes other US federal agencies as
   well as foreign governmental monetary organizations.

   We are available if you need any additional information or would like to further discuss this
   memorandum.




                                                                                                   9
A member firm of Ernst & Young Global Limited
Summary information for EY executives assigned to the engagement
                                                                         In compliance with
                                                             Years of       EY CPE policy
Name                        Rank        Certifications      experience        (Yes/No)
                                        CA (Switzerland),
Werner Lippuner      Principal                                     25           Yes
                                        CISA, CISM
James Merrill        Executive Director CPA, CISA                  32           Yes
                                        CISSP, CPA, CISA,
Bruce Hamilton       Senior Manager                                33           Yes
                                        CISM
Staci Angel          Senior Manager     CISA                       10           Yes




                                                                                      10
EY | Assurance | Tax | Transactions | Advisory


About EY
EY is a global leader in assurance, tax, transaction and advisory
services. The insights and quality services we deliver help build trust
and confidence in the capital markets and in economies the world
over. We develop outstanding leaders who team to deliver on our
promises to all of our stakeholders. In so doing, we play a critical role
in building a better working world for our people, for our clients and
for our communities.
EY refers to the global organization and may refer to one or more of
the member firms of Ernst & Young Global Limited, each of which is a
separate legal entity. Ernst & Young Global Limited, a UK company
limited by guarantee, does not provide services to clients. For more
information about our organization, please visit ey.com.
Ernst & Young LLP is a client-serving member firm of
Ernst & Young Global Limited operating in the US.
© 2014 Ernst & Young LLP.
All Rights Reserved.
BSC No. 1408-1307304
ED none
